HHS/OIG-Audit--"Review of Bad Debts Reported by Fresenius Medical Care's Facilities Under Medicare's End Stage
Renal Disease Program for Calendar Year 1996, (A-01-98-00508)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Bad Debts Reported by Fresenius Medical Care's Facilities Under Medicare's End Stage Renal Disease Program
for Calendar Year 1996," (A-01-98-00508)
March 4, 1999
Complete
Text of Report is available in PDF format (4.34 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Fresenius Medical Care (FMC) allocated approximately $16.1 in unallowable costs
to 320 facilities claiming reimbursable bad debts in Calendar Year 1996. As a result, reimbursable bad debts claimed by
these facilities were overstated by $1.5 million. In addition to a financial adjustment for the $1.5 million, we recommended
that FMC establish additional procedures to exclude the unallowable costs identified by our review from future cost reports.
The FMC generally concurred with our findings and recommendations.